ETA, OSHA, and ILAB provided oversight of their earmarks through desk
reviews, risk assessments, and on-site monitoring. MSHA officials stated that
oversight was provided primarily through the review of written progress reports.
ODEP transferred its earmarked funds to the U.S. Department of Health and
Human Services, Centers for Medicare and Medicaid Services (CMS). Oversight
was provided by CMS. For ETA, MSHA, OSHA and ODEP, earmarks’ impact
was minimal. Earmarks had a major impact on advancing ILAB's mission, as
earmarks were the primary source of funding for its international child labor
program.

1.      What Were the Total Number and Cost of FY 2005 DOL Earmarks?

DOL reported 200 earmarks totaling $125.3 million during FY 2005. ETA and
ILAB accounted for 93 percent (56 percent and 37 percent, respectively) of the
earmark funds awarded.

                              FY 2005 DOL EARMARKS
              Reported by OMB                    Reported by DOL
                                                                                 Funds
             Number                     Number                     Percent
                                                                               Expended
                            Amount                     Amount       of DOL
Agency          of                         of                                 as of March
                           (Millions)                 (Millions)   Earmark
                                                                                  2007
             Earmarks                   Earmarks                    Funds
                                                                               (Millions)
                                                                   Reported
ETA                  199       $65.4            194       $70.7          56           $27.8
ILAB                   2        47.0              2        46.6          37            25.7
MSHA                   2          3.7             2          3.7          3             3.4
OSHA                   1          3.3             1          3.3          3             3.1
ODEP                   1          1.0             1          1.0          1              .7
     Total           205      $120.4            200      $125.3         100           $60.7



A complete list of the earmarks reported by DOL is included as an attachment to
this report.

We reconciled the $120.4 million in earmarks reported by OMB with the $125.3
million in earmarks reported by DOL, as follows:

        Earmarks Reported by OMB                                    $120.4 million
        Errors in OMB Reported Amounts                                 5.7 million
        Less: ETA Earmarks Not Awarded                                <0.4 million>
        Less: Other Minor Reporting Differences                       <0.4 million>
        Total Earmarks Reported by DOL                              $125.3 million




                                           -2-
OMB underreported the amount appropriated by Congress for 3 earmarks, as
detailed below:

Earmark                           Appropriated Reported by  Difference
Entity                            Amount       OMB
AFL-CIO Appalachian Council,        $2,200,000     $220,000    $1,980,000
Enterprise Community
AFL-CIO Working for                  $1,500,000        $150,000      $1,350,000
America Institute
National Center on Education         $2,600,000        $260,000      $2,340,000
and the Economy
Total                                $6,300,000        $630,000      $5,670,000


We also found that ETA did not make awards totaling $420,000 for the following
five earmarks contained in its appropriation:

Earmark Entity             Appropriated Reason Not Awarded
                           Amount
Marshall County                 $20,000 Entity did not submit a proposal
Economic Division                       because the proposed scope of work
                                        was outside organization's mission
Indian Territory                $50,000 Entity declined funds -- pilot project
Associates                              would not be able to occur as proposed
Community Learning             $150,000 Entity informed ETA that it would not
Center of Washington                    pursue earmarked funding
County
California University of       $100,000 Entity did not submit a proposal that
Pennsylvania                            met ETA's requirements
413 Hope Mission               $100,000 Entity did not submit a proposal that
Ministries                              met ETA's requirements
Total                          $420,000


ETA

Congress appropriated 199 earmarks; of these, 194 were awarded totaling $70.7
million. As explained above, five of the intended recipients of earmarks did not
receive funding. Generally, earmarks were used to serve a target group of job
seekers, wage earners or retirees, and contained specific performance measures
for enrollment, training completion, skill attainment, placement, cost per
participant, retention, and employer and participant-customer satisfaction. As of
March 31, 2007, ETA reported $27.8 million, or 39 percent of the amount
awarded, had been expended.




                                       -3-
ILAB

ILAB received $46.6 million for two earmarks to the International Labour
Organization (ILO), an agency of the United Nations. Of this amount, $44.6
million was utilized for the elimination of international child labor, and $2 million
was for international HIV/AIDS workplace education. As of March 31, 2007, ILAB
reported $25.7 million, or 55 percent, of the earmark amount had been
expended.

MSHA

MSHA received $3.7 million for two earmarks. One earmark was awarded as a
$3 million contract to the National Technology Transfer Center at Wheeling Jesuit
University in Wheeling, West Virginia. The purpose of the earmark was to
support the Coal Impoundment Location and Information System. Coal
impoundments store water and waste created during the mining process, and are
subject to breaks that can result in serious flooding. The Coal Impoundment
Location and Information System identifies coal impoundments in West Virginia
and other states and is used to alert nearby residents of emergency situations
and related evacuation plans. MSHA's other earmark was a $750,000 contract
for infrastructure improvements at the Mine Academy in Beckley, West Virginia.
As of March 31, 2007, MSHA reported that $3.4 million, or 92 percent of the
amount awarded, had been expended.

OSHA

OSHA received a $3.3 million earmark to continue funding 17 Susan Harwood
Institutional Competency Building grants. These grants are intended to provide
employers and employees in high hazard industries with training and education
programs that address the recognition, avoidance, and prevention of
occupational safety and health hazards. As of March 31, 2007, OSHA reported
$3.1 million, or 94 percent of the amount awarded, had been expended.

ODEP

ODEP received an earmark directing it to transfer $1 million to CMS to build on a
previous pilot between ODEP and CMS. The pilot provided for the performance
of CMS call center work by individuals with severe disabilities working from
home-based workstations. A Memorandum of Understanding was signed
between ODEP and CMS delegating responsibility for oversight and
implementation to CMS. As of March 31, 2007, ODEP reported that $700,000, or
70 percent of the amount awarded, had been expended.




                                        -4-
2.    What Oversight was Conducted on Earmarks and How Does This
      Compare to Oversight Conducted on Other Grants and Contracts?

At three DOL agencies (ETA, OSHA, and ILAB), oversight was provided through
desk reviews, risk assessments, and on-site monitoring. MSHA officials stated
that oversight was provided primarily by reviewing written progress reports, while
ODEP transferred responsibility for oversight to CMS. There were no instances
noted where oversight policies differed for earmarks as compared to other
awards.

ETA

ETA's oversight procedures used a multi-step approach that included:
a structured risk assessment of all new grants and grantees; quarterly desk
reviews of the financial and program performance of each grant; onsite review of
grantees; and the use of a standard monitoring guide. For FY 2005 earmarks,
ETA reported that it had completed risk assessments for 97 percent of the
earmark grants, conducted on-site monitoring for 29 percent, and performed
desk reviews for 99 percent.

Employment and Training Order No. 1-03, Improving Administration of Grants
within the Employment and Training Administration, states:

      Regional and program offices with assigned grants will develop an
      on-site oversight/monitoring strategy for each grant . . . The
      strategy will use the results of a standardized Risk Assessment,
      updated quarterly to help determine the priority for scheduling on-
      site visits to the grantee. Regional and program offices will make
      on-site visits to all new grants within 12 months of beginning grant
      activity. . . . New grants that are rated in the “at-risk” category at the
      time of start-up will be visited on site within the first three months of
      operation. Any ongoing grant that falls into the “at-risk” category
      during the period of grant performance will be visited on site within
      three months of the updated risk assessment... Every grant not
      selected for an on-site visit during a year will undergo an annual
      desk audit... FPOs [Federal Project Officer] will conduct quarterly
      data analysis of financial reports and performance reports to assure
      that reports are timely and accurate and demonstrate satisfactory
      progress in achieving the goals of the project. The results of the
      quarterly analysis will be documented in the Grants e-Management
      System (GEMS). . . .

Further, ETA established the Philadelphia Center for Excellence to manage and
coordinate ETA's earmark award process. The Philadelphia Center for
Excellence reviewed grant proposals and provided technical assistance and
policy guidance to Regional Offices and earmark grantees.



                                         -5-
ILAB

ILAB received $46.6 million for two earmarks to the ILO, an agency of the United
Nations. The United Nations, not ILAB, has direct oversight responsibilities for
the ILO.

The United Nations' oversight of the ILO is provided through its internal auditor
(Office of Internal Oversight Services) and an external auditor. The external
auditor is selected for a 4-6 year term from organizations similar to the United
States' Government Accountability Office. The external auditor is currently the
National Audit Office of the United Kingdom. Because it is an agency of the
United Nations, headquartered in Geneva, Switzerland, the ILO is not subject to
the audit requirements of OMB Circular A-133.

According to ILAB officials, ILAB is responsible for providing the necessary
oversight to the projects funded under its cooperative agreement with the ILO to
ensure that project objectives are achieved and funds are spent in compliance
with the terms and conditions of the cooperative agreement.

ILAB’s oversight role for the funds earmarked to the ILO is outlined in the
USDOL-ILO Cooperative Agreement, with more substantive directives included
in ILO's Management Procedures and Guidelines (MPG). According to the MPG:

       USDOL involvement focuses on working with the ILO in order to
       refine project documents and their corresponding budgets,
       monitoring implementation through progress reports, and mid-term
       and final project evaluations. USDOL involvement is generally
       characterized by written comments and oral feedback tied to the
       approval of deliverables and grantee performance, as outlined in
       the Cooperative Agreement and individual project documents.
       USDOL staff may also conduct field visits to the project.

ILAB officials stated that they perform risk assessments on ILAB-funded ILO
projects, and use the risk assessments to identify projects for review by ILO's
external auditors. According to ILAB officials, until about 2004, the external
auditors conducted solely financial audits of the ILO and its programs. ILAB
officials stated that, more recently, ILAB has provided funding to the external
auditors to conduct project specific audits that assessed and provided an opinion
on the reliability of financial and performance data reports, and compliance with
the terms and conditions of the cooperative agreement.

MSHA

The Contracting Officer and Contracting Officer's Technical Representative
provided oversight of MSHA's two earmarks. According to MSHA officials,



                                       -6-
oversight was provided primarily through written progress reports provided with
each invoice for payment.

OSHA

OSHA officials stated that oversight of earmarks was provided by OSHA regional
offices. OSHA regional offices are required to perform program and financial
monitoring of all Harwood grants, including earmarks, annually. OSHA Directive
Number TED 03-00-001, Administering OSHA Discretionary Grant Programs,
requires regional offices to conduct at least two on-site monitoring visits during
the first year of the grant and at least one on-site monitoring visit during each
subsequent year.

ODEP

A Memorandum of Understanding delegated oversight responsibility to CMS.
ODEP receives progress reports provided by CMS on a quarterly basis and upon
project completion.

Objective 3:   What was the Overall Impact of Earmarks on Advancing the
               Primary Mission and Goals of DOL?

For ETA, MSHA, OSHA and ODEP, earmarks’ impact was minimal. Earmarks
had a major impact on advancing ILAB's mission, as earmarks were the primary
source of funding for its international child labor program. ILAB, through its
Office of Child Labor, Forced Labor, and Human Trafficking (OCFT), funds and
oversees cooperative agreements and contracts to organizations engaged in
efforts to eliminate exploitive child labor around the world. The $44.6 million
earmark appropriated to ILAB in FY 2005 for the elimination of international child
labor provided 56 percent of the funding for the international child labor program.

ETA

Generally, ETA's earmarks were used to serve a target group of job seekers,
wage earners or retirees, supporting ETA’s mission of improving working
conditions, advancing opportunities for profitable employment, protecting
retirement and healthcare benefits, and helping employers find workers. ETA’s
earmarks accounted for less than 1 percent of ETA’s FY 2005 Budget. These
activities supported DOL’s Strategic Goals 1 and 4: A Prepared Workforce and A
Competitive Workforce.

ILAB

Earmarks had a major impact on advancing ILAB's mission, as earmarks were
the primary source of funding for its international child labor program. ILAB
reported receiving $46.6 million of earmarked funds in FY 2005, which



                                       -7-
represented 50 percent of ILAB's overall budget of $94 million. The $44.6 million
earmark for the elimination of child labor represented approximately 56 percent
of ILAB's Elimination of Child Labor budget of $79 million. In FY 2005, DOL
reported 150,708 children were removed or prevented from child labor and
provided education or training opportunities as a result of ILAB activities.
Earmark-funded projects supported DOL’s Strategic Goal 3: A Quality Workforce.

MSHA

MSHA officials stated that one of MSHA's earmarks furthered DOL's mission
by supporting the Coal Impoundment Location and Information System. Coal
impoundments store water and waste created during the mining process, and are
subject to breaks that can result in serious flooding. The Coal Impoundment
Location and Information System identifies coal impoundments in West Virginia
and other states and is used to alert nearby residents of emergency situations
and related evacuation plans. MSHA's other earmark funded improvements to a
facility at its Mine Safety and Health Academy in Beckley, West Virginia. MSHA
officials stated that these improvements enhanced DOL’s ability to support its
continuity of operation plans. MSHA earmarks accounted for less than 2 percent
of its budget for FY 2005, and supported DOL’s Strategic Goal 3: A Quality
Workforce.

OSHA

OSHA earmarks provided training and education programs that addressed the
recognition, avoidance, and prevention of occupational safety and health hazards
to employers and employees in high hazard industries, and to small business
employers, young workers and limited-English-proficient employees. OSHA
earmarks account for less than 1 percent of its budget for FY 2005, and
supported DOL’s Strategic Goal 3: A Quality Workforce.

ODEP

The ODEP earmark was used to recruit, hire, and employ qualified individuals
with disabilities to work as Customer Service Representatives from their home.
The tele-work initiative fit both the development of effective employment
practices and the development of disability employment policy. ODEP earmarks
account for 2 percent of its budget for FY 2005, and supported DOL’s Strategic
Goal 2: A Secure Workforce.


I would like to express our appreciation for the cooperation and courtesy that was
extended to us by your staff. If you have any questions or would like a briefing
on this report, please contact me on 693-5166.

Attachment


                                       -8-
                                                                                AMOUNT
                         EARMARK AWARD RECIPIENT                                AWARD

Employment and Training Administration
Advanced Ceramics Foundation                                                      $991,700
AFL-CIO Appalachian Council, Enterprise Community                                2,200,000
AFL-CIO Working For America Institute                                            1,500,000
American Community Partnership                                                     198,400
Amer-I-Can Illinois, Inc.                                                           49,600
Amigos De Los Rios                                                                  99,200
Asnuntuck Community College                                                        198,400
Automation Alley                                                                   446,400
Base, Inc.                                                                          99,200
Ben Franklin Technology Partners Corporation                                        99,200
Biopartners at Lake Success, Inc.                                                  252,960
Bismarck State College                                                             496,000
Black Clergy of Philadelphia & Vicinity                                          4,000,000
Blackhawk Technical College                                                        297,600
Board Of Regents - NSHE on Behalf of Desert Research Institute                     148,800
Brooklyn Public Library                                                            496,000
Burlington School District                                                         198,400
Camp, Inc.                                                                         496,000
Capital Investing in the Development & Education of Adults, Inc.                   317,440
Capital Workforce Partners                                                          99,200
Career Academy                                                                     286,688
Career Resources Inc                                                                99,200
Carl Sandburg College                                                               99,200
Center for Employment Training                                                     198,400
Central State University                                                           198,400
Centralia College                                                                  248,000
Charity Cultural Services, Inc                                                     396,800
Chattanooga State Tech Community College                                           396,800
Cincinnati State Technical And Community College                                   248,000
City of Auburn, New York                                                           297,600
City of Hawthorne - South Bay Workforce Investment Board                           287,680
City of Santa Ana Work Center                                                      198,400
Clackamas Community College                                                        148,800
Collegiate Consortium for Workforce and Economic Development                       297,600
Communities in School of San Francisco Valley Inc.                                 530,720
Community College of Allegheny County                                               49,600
Community Educational Council of Elk and Cameron Counties                           74,400
Community Empowerment Association Inc                                               99,200
Community Transportation Association of America                                    496,000
Cook Inlet Tribal Council, Inc.                                                    223,200
Council of State Gov’t (Northeast States Assoc. for Agricultural Stewardship)       74,400
County of San Bernardino                                                           248,000
Delaware Valley Project W/DBA Hireability                                           99,200
Denali Commission                                                                6,944,000
Department of Labor and Industrial Relations/State Of Hawaii                     1,984,000
Dorcas Place Adult & Family Learning Center, Inc.                                  148,800


                                                   -9-
                                                            AMOUNT
                        EARMARK AWARD RECIPIENT             AWARD
Economic Growth Connection of Westmoreland                    148,800
Empowerment Group                                              99,200
Expertise, Inc.                                               248,000
Fashion Business, Inc.                                         49,600
Fay-Penn Economic Development Council                          99,200
Florida Institute of Technology                               892,800
Fort Worth Hispanic Chamber of Commerce, Inc.                 331,328
Fresno County                                                 223,200
Fresno County WIB                                             396,800
Fresno County WIB                                              99,200
George C. Wallace Community College                           148,800
Houston Area Urban League, Inc.                               297,600
Illinois State University                                     496,000
Illinois Valley Community College                             396,800
Impact Services Corporation                                    74,400
International Association of Jewish Vocational Services       148,800
Iowa Valley Community College                                 148,800
IRC Network, Inc.                                              99,200
Ivy Tech Community College of Indiana - Fort Wayne Campus      49,600
Jackson County Twenty-First Century Council                    74,400
Jackson Memorial Hospital                                     124,000
Jewish Family and Children's Services of Pittsburgh            99,200
Jewish Healthcare Foundation                                   99,200
Jewish Vocational Service                                     198,400
Jewish Vocational Services, Inc. – Boston                     396,800
Kennebec Valley Community College                             248,000
Ken's Kid, Inc.                                                49,600
Lake County                                                   198,400
Laramie County Community College                               99,200
Lawson State Community College                                138,880
Louisiana National Guard                                       99,200
Maglev, Inc.                                                  992,000
Maine Manufacturing Extension Project                         248,000
Massachusetts League of Community Health Centers, Inc.        248,000
Massachusetts Manufacturing Extension Partnership             124,000
Maui Economic Development Board                               300,000
Maui Economic Development Board                               300,000
Maura-Clarke-Ita Ford Center                                  248,000
Mayor's Office of Employment Development                      446,400
Mayville State University                                      99,200
McKean County Housing & Redevelopment Authority                99,200
Meca United Cerebral Palsy, Inc.                               49,600
Medina Works                                                  148,800
Melwood Horticultural Training Center, Inc.                   198,400
Mercy Vocational High School                                  148,800
Metropolitan Career Center                                     99,200
Milwaukee Area Technical College                              446,400
Mineral Area College                                          496,000
Minot State University                                        644,800


                                        - 10 -
                                                                               AMOUNT
                       EARMARK AWARD RECIPIENT                                 AWARD
Mississippi State Univ. -- Robotics & Automated Systems For Nursery Industry      496,000
Mission of Love Charities, Inc.                                                   148,800
Mississippi State University                                                      496,000
Mississippi State University                                                      396,800
Mississippi Technology Alliance                                                   496,000
Mississippi Valley State University                                               396,800
Montachusetts Opportunity Council Inc.                                            198,400
Montana State University - College Of Business                                    124,000
Multicultural Community Family Services, Inc.                                      49,600
National Center on Education And The Economy                                    2,600,000
National Council of La Raza                                                       496,000
National Student Partnerships, Inc.                                               595,200
New Courtland Elder Services                                                      148,800
New York Association for New Americans, Inc.                                       99,200
North Carolina Rural Economic Development Center, Inc.                            396,800
Northeast Higher Education District                                               347,200
Northwest Artic Borough School District                                           248,000
Northwest Pennsylvania Industrial Resource Center                                 148,800
Northwest Wisconsin CEP, Inc.                                                     694,400
Opportunities Industrialization Centers Inc.                                      248,000
Our House, Inc.                                                                   148,800
PA Learning Network, Inc.                                                          99,200
Patrick County Education Foundation                                                99,200
Phoenix Houses Of New England                                                      99,200
Piedmont Virginia Community College - Division of Workforce Services               99,200
Pine Ridge Area Chamber Of Commerce                                               198,400
Pittsburgh Airport Area Chamber Enterprise Foundation                              74,400
Polk Community College                                                            198,400
Precision Manufacturing Institute                                                  99,200
Project Arriba                                                                    337,280
Project One                                                                        24,800
Public Health Foundation Enterprises, Inc. for Aztecs Rising                      396,800
Ramsey County                                                                      99,200
Regional Economic Development District Initiatives (REDDI)                         99,200
Regional Technical Center, City of Holly Springs                                   99,200
Reg. Workforce Inv. Alliance (AKA Central Iowa Emp. & Training Consortium)        595,200
Rend Lake College                                                                 148,800
Research Foundation of State University Of New York                                99,200
Robert Morris University                                                           99,200
Rural Enterprises of Oklahoma, Inc.                                                49,600
San Diego Second Chance Program                                                   218,240
Schoolcraft College                                                                99,200
Seattle King County Workforce Development Council                                  99,200
Second Chance Employment Services                                                  99,200
Shelton State Community College                                                   406,720
Smart Futures (AKA Tides Center of Western Pennsylvania)                           24,800
Society of St. Vincent De Paul of South Pineallas                                 248,000
South Seattle Community College                                                    99,200
Southeast Local Dev. District AKA Southeast Tennessee Dev. District               297,600


                                               - 11 -
                                                                    AMOUNT
                        EARMARK AWARD RECIPIENT                     AWARD
Southland Health Care Forum                                             99,200
Southwest Alaska Vocational & Education Center                         496,000
Southwestern Oklahoma State University                                 317,440
St. Louis Community College                                            317,440
Stark State College Of Technology                                      429,536
Stark State College Of Technology                                      198,400
State Of Alaska, Department Of Labor And Workforce Development         496,000
Stillman College                                                       138,880
Teach Tec, Training & Employment Center                                322,400
Team Taylor County                                                     248,000
The Abilities Fund                                                     992,000
The Employment Source                                                  396,800
The Enterprise Center                                                   99,200
The Excel Institute                                                    426,560
The Hispanic Center, Inc. (The Hispanic/Latino Center)                  49,600
The Institute for Human Investment and Economic Growth                  99,200
The Iowa Department of Human Rights - Division of Latino Affairs       241,056
The Philadelphia Veterans Multi-Service                                545,600
The Prince Music Theater                                                74,400
The Women's Resource Assistance Program                                 99,200
Tunkhannock Area School District                                        49,600
UMWA Career Centers, Inc.                                              793,600
United Mine Workers of America Career Center                         1,190,400
University of Alaska - Southeast Ketchikan                             148,800
University of Hawaii/Maui Community College                            496,000
University of Hawaii/Maui Community College                          1,785,600
University of Hawaii/Maui Comm. College (Hawaii Comm. Foundation)    1,488,000
University of Idaho, College Of Agriculture                            892,800
University of Northern Iowa                                            198,400
University of Wisconsin – Stout                                        148,800
Upper Catskill Television Network                                       99,200
Valencia County Hispano COC                                            248,000
Valley Initiative for Development and Advancement                      317,440
Vermont Healthcare Information Technology                              322,400
Vietnam Veterans Leadership Program of Western Pennsylvania, Inc.      744,000
Vermont Department Of Labor                                            446,400
Waubonsee Community College                                            297,600
WAVE                                                                    74,400
West Shore Community College                                           396,800
West Virginia High Tech Consortium Foundation                          496,000
WHYY Inc.                                                               49,600
Wire Net                                                               367,040
Women Work! The National Network for Women Employment                   49,600
Workforce Connections, Inc.                                            198,400
WIB of Herkimer, Madison and Oneida Counties                           173,600
Workforce Resource, Inc.                                               148,800
Worknet Pinellas, Inc.                                                 198,400
Worksystems, Inc.                                                      297,600
Wrightco Technologies Inc.                                              99,200


                                         - 12 -
                                                                                AMOUNT
                    EARMARK AWARD RECIPIENT                                      AWARD
Wrightco Technologies Inc.                                                           99,200
                                TOTAL                                           $70,651,828

Bureau of International Labor Affairs (ILAB)
International Labour Organization (ILO) 17 projects                             $44,640,000
International HIV/AIDS Workplace Education Program                                1,984,000
                                         TOTAL 1                                $46,624,000

Mine Safety and Health Administration (MSHA)
Mine Academy in Beckley, West Virginia                                            $750,000
National Technology Transfer Center at Wheeling Jesuit University                 3,000,000
                                        TOTAL                                    $3,750,000

Occupational Safety and Health Administration (OSHA)
Susan Harwood Institutional Competency Building category grants                  $3,258,943

Office of Disability Employment Policy
DHHS Centers for Medicare and Medicaid Services                                   $994,600

TOTAL EARMARK AWARDS                                                           $125,279,371




  1
      ILAB retained $5,382,000 for oversight activities of its two earmarks.


                                                   - 13 -
